No. 19-66
IN THE

GEORGE Q. RICKS,

Petitioner,
V.
STATE OF IDAHO CONTRACTORS BOARD,

et al.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
IDAHO COURT OF APPEALS

CERTIFICATE OF SERVICE
I, Daniel P. Kearney, Jr., a member of the bar of this Court, hereby certify that,
on this 12th day of August, 2019, all parties required to be served have been served
copies of the Brief for Amici Curiae General Conference of Seventh-Day Adventists,
Church of God in Christ, The Church of Jesus Christ of Latter-Day Saints, Ethics and
Religious Liberty Commission, The Lutheran Church-Missouri Synod, and Union of
Orthodox Jewish Congregations of America in Support of Petitioner in this matter by
overnight courier to the addresses on the attached service list.

DANIEL P. KEARNEY, JR.
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
daniel.kearney@wilmerhale.com

SERVICE LIST

Counsel for Petitioner

Counsel for Respondents

Eric S. Baxter
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW, Suite 700
Washington, DC 20036
(202) 955-0095
ebaxter@becketlaw.org

Lawrence G. Wasden
Attorney General
Leslie Hayes
Deputy Attorney General
State of Idaho
700 W. Jefferson Street, Suite 210
PO Box 83720-0010
Boise, Idaho 83720-0010
(208) 334-2400
lawrence.wasden@ag.idaho.gov
leslie.hayes@ag.idaho.gov

